                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                               CLOSEOUT MEMORANDUM



Subject: Closeout Memo


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have violated current employeerestrictions.
     Our investigation disclosed no evidence that would require us to pursue action. The subject was
     counseled by the Inspector General.

     Accordingly this case is closed.




     OIG-02-2
